August 29, 2000

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Audit of the Postal Inspection Service Self-Referral Counseling Program
          (Report Number OV-AR-00-001)

This report presents the results of our audit of the Postal Inspection Service’s Self-
Referral Counseling Program (Project Number 00CA002OV000). Our objective was to
evaluate the management and operation of the Inspection Service’s Self-Referral
Counseling Program.

We concluded that the management and operation of the Self-Referral Counseling
Program was generally effective in supporting program objectives. However, a program
contingency plan was not prepared until after the audit was initiated. The report
contains no recommendations. Management provided comments to the report and
stated that the audit supports their views regarding the benefits of the program and
ensures that the administration of the program is consistent with good business
practices. Management’s comments, in their entirety, are included in an Appendix B of
this report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Dennis Riley, acting director, Oversight, or
me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: 	James K. Belz
    John R. Gunnels
Postal Inspection Service Self-                         OV-AR-00-001
 Referral Counseling Program


                                  TABLE OF CONTENTS 

Executive Summary
                                          i

Part I 


Introduction 
                                              1

    Background                                              1
    Objective, Scope, and Methodology                       2


Part II 


Audit Results                                               4


   Self-Referral Counseling Program                         4

   Audit Comment                                            5

   Management’s Comments                                    5


Appendix A. Details of Audit Results                        6


Appendix B. Management’s Comments                           8

Postal Inspection Service Self-                                                       OV-AR-00-001
 Referral Counseling Program


                                     EXECUTIVE SUMMARY
Introduction 	                    This report presents the results of our audit of the Postal
                                  Inspection Service’s Self-Referral Counseling Program
                                  (Project Number 00CA002OV000). Inspection Service
                                  management suggested this audit topic for inclusion in our
                                  annual audit plan.

Results in Brief                  Our audit disclosed that the management and operation of
                                  the Self-Referral Counseling Program was generally
                                  effective in supporting program objectives. Specifically,
                                  Inspection Service management provided oversight of
                                  program operations while maintaining inspector
                                  confidentiality; management controls were sufficient to
                                  ensure correct payments to participating psychologists and
                                  the program coordinator; and inspectors using the program
                                  were generally pleased with it. In addition, the Self-Referral
                                  Counseling Program provided benefits not provided by
                                  Employee Assistance Programs at the Postal Service and
                                  other federal law enforcement agencies surveyed.
                                  Although the management and operation of the Self-
                                  Referral Counseling Program was generally effective, a
                                  program contingency plan was not prepared until after the
                                  audit was initiated.

Summary of 	                      This report contains no recommendations since the
Recommendations 	                 program coordinator submitted a program contingency plan
                                  to the Inspection Service coordinator and the deputy chief
                                  inspector for Administration during the course of the audit.

Management’s                      Although the report contains no recommendations, the
Comments                          deputy chief inspector, Security and Technology, provided
                                  comments to the report. The deputy chief inspector
                                  identified that the audit supports management views
                                  regarding the benefits of the program and ensures that the
                                  administration of the program is consistent with good
                                  business practices. Management’s comments, in their
                                  entirety, are included in Appendix B of this report.




                                                    i
Postal Inspection Service Self-                                                        OV-AR-00-001
 Referral Counseling Program


                                          INTRODUCTION
Background 	                      The Self-Referral Counseling Program is a confidential
                                  counseling program through which postal inspectors can
                                  request and obtain counseling from preapproved clinical
                                  psychologists located throughout the country. The program
                                  was created to assist inspectors experiencing work-related
                                  stress that could impact work performance. Work-related
                                  stress includes marital and family problems, bereavement,
                                  supervisory and performance problems, alcohol abuse, and
                                  other similar issues. The purpose of the program is to
                                  provide therapy and not determine fitness for duty.

                                  The Self-Referral Counseling Program is designed to
                                  support postal inspectors. However, Inspection Service
                                  support personnel and postal police officers may participate
                                  in the program by requesting authorization from the deputy
                                  chief inspector for Administration. The program served
                                  98 clients during fiscal year (FY) 1998 at a cost of $75,352,
                                  and 81 clients during FY 1999 at a cost of $79,934.

Process 	                         The Inspection Service Manual, Section 149, July 30, 1999,
                                  governs the operation of the Self-Referral Counseling
                                  Program. Inspectors, as part of the program, are
                                  authorized to obtain therapy from approved state licensed
                                  clinical psychologists at Postal Service expense. All
                                  psychologists have experience working with law
                                  enforcement personnel and have undergone background
                                  and reference checks before being accepted into the
                                  program.

                                  An inspector contacts the program coordinator, a licensed
                                  police psychologist who is not an employee of the
                                  Inspection Service, to initiate the referral process. The
                                  program coordinator verifies that the inspector is a current
                                  employee of the Inspection Service, discusses the
                                  inspector’s needs, and provides the inspector with a billing
                                  number to provide to the psychologist at the initial visit. The
                                  inspector selects a local psychologist from a listing of
                                  participating psychologists maintained at each division and
                                  domicile. Inspectors are authorized to receive up to ten
                                  hourly therapy sessions. The program coordinator and
                                  deputy chief inspector for Administration may authorize up
                                  to an additional ten sessions during a 12-month period.




                                                    1
Postal Inspection Service Self-                                                                       OV-AR-00-001
 Referral Counseling Program


                                    Psychologists send invoices to the program coordinator who
                                    reviews, signs, and forwards them to the Bala Cynwyd
                                    Operations Support Group for payment. Operations
                                    Support Group personnel review the invoices, and reject or
                                    process the invoice for payment.

Program                             The program coordinator assists inspectors with referrals,
Responsibilities                    acts as a liaison between inspectors and program
                                    psychologists, updates referral sources, responds to
                                    complaints or concerns with the program, and coordinates
                                    program activities with the Inspection Service coordinator.
                                    Due to confidentiality requirements, the program
                                    coordinator is the only person who knows the identity of the
                                    inspector participating in the program other than the
                                    participating psychologist.

                                    The manager, Inspection Service Operations Support
                                    Group, Bala Cynwyd, Pennsylvania, is the Inspection
                                    Service coordinator for the program. The Inspection
                                    Service coordinator monitors program activities through
                                    coordination with the program coordinator and inspector
                                    surveys. The Inspection Service coordinator also reviews
                                    and approves program therapist invoices for payment.

Objective, Scope, and               Our objective was to evaluate the management and
Methodology                         operation of the Inspection Service’s Self-Referral
                                    Counseling Program. Specifically, we evaluated program
                                    management, management controls, and client satisfaction.
                                    We also compared the program to Employee Assistance
                                    Programs at the Postal Service and selected federal law
                                    enforcement agencies.

                                    To accomplish our objective, we reviewed documentation
                                    supporting provider payments for 20 randomly selected
                                    billing numbers for FY 1998 and 1999. We also reviewed
                                    documentation supporting payments to the program
                                    coordinator and program surveys returned by program
                                    participants during FY 1998 and 1999. We interviewed the
                                    deputy chief inspector for Administration, Inspection Service
                                    coordinator, and program coordinator. We also interviewed
                                    Employee Assistance Program officials at the U.S. Postal
                                    Service; Secret Service; Bureau of Alcohol, Tobacco and
                                    Firearms; and the Federal Bureau of Investigation.1
1
    Information provided by agency representatives was self-reported and was not independently verified.




                                                           2
Postal Inspection Service Self-                                                    OV-AR-00-001
 Referral Counseling Program


                                  We conducted the audit from February through
                                  August 2000 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as were considered necessary. We
                                  discussed our conclusions and observations with
                                  appropriate management officials and included their
                                  comments, where appropriate.




                                                   3
Postal Inspection Service Self-                                                       OV-AR-00-001
 Referral Counseling Program


                                         AUDIT RESULTS
Self-Referral                     The management and operation of the Self-Referral
Counseling Program                Counseling Program was generally effective in supporting
                                  program objectives. Specifically, Inspection Service
                                  management provided oversight of program operations
                                  while maintaining inspector confidentiality; management
                                  controls were sufficient to ensure correct payments to
                                  participating psychologists and the program coordinator;
                                  and inspectors using the program were generally pleased
                                  with it. In addition, the Self-Referral Counseling Program
                                  provided benefits not provided by Employee Assistance
                                  Programs at the Postal Service and other federal law
                                  enforcement agencies surveyed. Although the
                                  management and operation of the Self-Referral Counseling
                                  Program was generally effective, a program contingency
                                  plan was not prepared until after the audit was initiated.
                                  See Appendix for detailed results related to our review of
                                  program management, management controls, client
                                  satisfaction, and benefits offered by Employee Assistance
                                  Programs at the Postal Service and federal law
                                  enforcement agencies surveyed.

Contingency Plan                  A program contingency plan, which explains the steps to be
                                  taken if the program coordinator was suddenly unable to
                                  continue in their role, was not prepared when the audit was
                                  initiated. We believe that a contingency plan is essential to
                                  ensure the continued operation of the program in the event
                                  that the program coordinator, who has significant
                                  responsibilities in ensuring the operation of the program,
                                  leaves the position. The absence of a written plan could
                                  have resulted in inspectors delayed entrance into the
                                  program. A delay in securing entrance to the program
                                  presents an increased risk to the Postal Service that
                                  inspectors are not receiving appropriate service.

                                  The program coordinator stated that he developed a
                                  program contingency plan during the trial phase of the
                                  program in the Western Region. However, neither the
                                  deputy chief inspector for Administration nor the Inspection
                                  Service coordinator was aware that a contingency plan
                                  existed.




                                                    4
Postal Inspection Service Self-                                                       OV-AR-00-001
 Referral Counseling Program



Audit Comment                     During the course of the audit, the program coordinator
                                  submitted a contingency plan, detailing the actions to be
                                  taken in the event the program coordinator was unable to
                                  continue in their role, to the Inspection Service coordinator
                                  and deputy chief inspector for Administration. We believe
                                  that this contingency plan adequately addresses the actions
                                  required to ensure continued program operation.

Management’s                      Although the report contains no recommendations, the
Comments                          deputy chief inspector, Security and Technology, provided
                                  comments to the report. The deputy chief inspector
                                  expressed appreciation to Office of Inspector General for
                                  the review. The deputy chief inspector further identified that
                                  the audit supports management views regarding the
                                  benefits of the program and ensures that the administration
                                  of the program is consistent with good business practices.
                                  Management’s comments, in their entirety, are included in
                                  Appendix B of this report.




                                                    5
Postal Inspection Service Self-                                                 OV-AR-00-001
 Referral Counseling Program


                    APPENDIX A. DETAILS OF AUDIT RESULTS
Program Management. Inspection Service management provided oversight of
program operations while maintaining inspector confidentiality. Specifically, the
Inspection Service coordinator maintained frequent contact with the program
coordinator to monitor program operations, payments, and client satisfaction. The
Inspection Service coordinator and program coordinator discussed and resolved
various program issues including requests for increases in rates made by practitioners.
The Inspection Service coordinator also worked with the program coordinator to
measure customer satisfaction with the program through client surveys. Once a year,
the Inspection Service coordinator prepared and forwarded client surveys to the
program coordinator, who forwarded them to program participants citing the billing
number to maintain confidentiality. Program participants returned the completed
surveys to the program coordinator, who provided the surveys to the Inspection Service
coordinator for review.

Management Controls. Management controls were sufficient to ensure that
psychologists were paid the agreed upon rate and were not paid for sessions in excess
of the authorized number. Sufficient controls also existed to ensure psychologists were
not paid for services not rendered and payments to the program coordinator were
correct.

Program participants mailed their invoices to the program coordinator who verified that
the billing rate was correct and that the number of sessions received did not exceed the
authorized number. After this initial review, the program coordinator forwarded the
invoices to the Inspection Service coordinator who reviewed and resolved any
discrepancies in the billing rates or number of sessions noted by the program
coordinator. Bala Cynwyd Operations Support Group staff also conducted an
independent review of invoices to ensure the correct billing rate was used and the
number of sessions attended did not exceed the maximum number of sessions allowed
before the Inspection Service coordinator certified them for payment. We identified that
Bala Cynwyd Operations Support Group staff rejected payments to psychologists in
some instances because the number of visits exceeded the authorized number or the
psychologists were charging an incorrect rate.

Sufficient controls also existed to ensure psychologists were not paid for services not
rendered and payments to the program coordinator were correct. Specifically, the
Inspection Service coordinator requested that inspectors participating in the program
verify the number of visits they had with the psychologist in their responses to the client
surveys. In addition, the program coordinator, based on a separate review of
psychologist invoices, researched and resolved instances of excess billings. The
Inspection Service coordinator and Bala Cynwyd Operations Support Group staff also
reviewed payments to the program coordinator, who tracked their own time spent on
the program, for reasonableness.




                                             6
Postal Inspection Service Self-                                              OV-AR-00-001
 Referral Counseling Program


Client Satisfaction. Inspectors using the Self-Referral Counseling Program were
generally pleased with the services provided. The results of the client surveys
completed by inspectors using the program during FY 1998 and FY 1999 indicated that
70 of the 71 inspectors completing the surveys gave the program favorable numeric
ratings. Some inspectors completing the surveys provided narrative comments in
addition to the numeric ratings. An inspector who used the program during FY 1998
expressed appreciation for the program and identified that they found the program to be
insightful and important to their personal and professional well being. Another inspector
who used the program during FY 1999 responded that they benefited from their
involvement in the program and would continue to benefit as they applied what they had
learned.

Employee Assistance Programs. The Secret Service; Bureau of Alcohol, Tobacco,
and Firearms; and Federal Bureau of Investigation do not have a program similar to the
Inspection Service’s Self-Referral Counseling Program. Rather, these agencies, like
the Postal Service, have established Employee Assistance Programs that provide
short-term counseling and assistance in locating outside resources for longer-term
counseling, if required.

While postal inspectors can use the Postal Service’s Employee Assistance Program,
the Self-Referral Counseling Program provides benefits not provided by Employee
Assistance Programs at the Postal Service or federal agencies surveyed. Specifically,
the Self-Referral Counseling Program utilizes clinical psychologists who have
experience counseling law enforcement personnel. The Employee Assistance
Programs at the Postal Service and federal agencies surveyed are not required to
utilize clinical psychologists with law enforcement experience. Rather, these programs
may use licensed professional counselors who may or may not have experience
counseling law enforcement personnel. In addition, postal inspectors can obtain up to
20 counseling sessions under the Self-Referral Counseling Program while the Postal
Service’s Employee Assistance Program provided up to 12 sessions. Employee
Assistance Programs at the federal agencies surveyed provided from three to eight
sessions. Finally, the Self-Referral Counseling Program provided postal inspectors an
increased assurance of anonymity that may not have been achieved through the Postal
Service’s Employee Assistance Program.




                                            7
Postal Inspection Service Self-                         OV-AR-00-001
 Referral Counseling Program


                    APPENDIX B. MANAGEMENT’S COMMENTS




                                    8
Postal Inspection Service Self-       OV-AR-00-001
 Referral Counseling Program


 Major Contributors to
 This Report




                                  9
